No. 19-984
In the

Supreme Court of the United States
__________________
MAZIE SLATER KATZ & FREEMAN, LLC,
Petitioner,
v.
COMMON BENEFIT FEE AND COST COMMITTEE,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

__________________

BRIEF IN OPPOSITION
__________________
Benjamin L. Bailey
Counsel of Record
Raymond S. Franks II
BAILEY GLASSER LLP
209 Capitol Street
Charleston, WV 25301
(304) 345-6555
bbailey@baileyglasser.com
rfranks@baileyglasser.com
Counsel for Respondent Common
Benefit Fee and Cost Committee
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
In accordance with Rule 15(2) of the Rules of the
United States Supreme Court, Respondent Common
Benefit Fee and Cost Committee objects to
consideration of this Petition in that Petitioner, as
Participating Counsel in the common benefit process
authorized by the district court, knowingly and
voluntarily waived its right to appeal, including its
right to seek certiorari from this Court. The district
court and the Fourth Circuit each enforced the appeal
waiver against Petitioner. This Petition should be
rejected on the same basis.

ii
CORPORATE DISCLOSURE STATEMENT
Respondent Common Benefit Fee and Cost
Committee was appointed by the district court, and it
has no parent corporations or stock of which a publicly
held corporation may own 10% or more. Respondent is
not aware of any publicly held corporation having a
direct financial interest in the outcome of this litigation
by reason of a franchise, lease, other profit-sharing
agreement, insurance, or indemnity agreement.

iii
STATEMENT OF RELATED PROCEEDINGS
% Anderson Law Offices & Benjamin H. Anderson v.
Common Benefit Fee & Cost Comm., No. 19-791,
cert. denied (U.S. Feb. 24, 2020).
% In re Ethicon, Inc. — Kline & Specter, P.C. v.
Common Benefit Fee & Cost Comm., No. 19-1224(L)
(dismissed 4th Cir. June 14, 2019), rehearing and
rehearing en banc denied (July 15, 2019).
% In re Ethicon, Inc. — Bernstein Liebhard LLP v.
Common Benefit Fee & Cost Comm., No. 19-1892
(dismissed 4th Cir. Sept. 23, 2019).

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
BRIEF IN OPPOSITION FOR RESPONDENT
COMMON BENEFIT FEE AND COST
COMMITTEE . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
FEDERAL AUTHORITIES INVOLVED . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
Introduction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Factual and Procedural Background . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
1. No circuit split exists regarding the
enforceability of the appellate waiver
underlying the dismissal of Petitioner’s
appeal. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
2. Petitioner’s misguided “circuit split”
argument is unsupported by the case law to
which it cites . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

v
TABLE OF AUTHORITIES
CASES
Brown v. Gillette Co.,
723 F.2d 192 (1st Cir. 1983) . . . . . . . . . . . . . . . . . 8
Goodsell v. Shea,
651 F.2d 765 (C. C. Pat. App. 1981) . . . . . . . . . . . 7
Hensley v. Eckerhart,
461 U.S. 424, 103 S. Ct. 1933,
76 L. Ed. 2d 40 (1983). . . . . . . . . . . . . . . . . . 17, 18
Hill v. Schilling,
495 Fed. App’x 480 (5th Cir. 2012). . . . . . . . . . . . 7
In re Diet Drugs,
582 F.3d 524 (3d Cir. 2009) . . . . . . . . . . . . . . . . 17
In re Genetically Modified Rice Litig.,
764 F.3d 864 (8th Cir.2014) . . . . . . . . . . . . . . . . 17
In re High Sulfur Content Gasoline Prods. Liab.
Litig., 384 Fed. App’x 299 (5th Cir. 2010) . . . . . 18
In re Lybarger,
793 F.2d 136 (6th Cir.1986) . . . . . . . . . . . . . . . . . 8
In re Prudential Ins. Co. Am. Sales Practice
Litig. Agent Actions,
148 F.3d 283 (3d Cir.1998) . . . . . . . . . . . . . . . . . 17
In re Thirteen Appeals Arising out of the San Juan
Dupont Plaza Hotel Fire Litig.,
56 F.3d 295 (1st Cir. 1995) . . . . . . . . . . . . . . . . . 18

vi
MACTEC, Inc. v. Gorelick,
427 F.3d 821 (10th Cir. 2005). . . . . . . . . . . . . . . . 8
Slattery v. Ancient Order of Hibernians in
Am., Inc., No. 97-7173, 1998 WL 135601
(D.C. Cir. 1998) . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8
STATUTE
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RULE
SUP. CT. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7

1
BRIEF IN OPPOSITION FOR RESPONDENT
COMMON BENEFIT FEE AND COST
COMMITTEE
OPINIONS BELOW
% ECF No. 14, In re C.R. Bard, Inc. — Mazie, Slater,
Katz & Freeman, LLC v. Common Benefit Fee and
Cost Comm., No. 19-1943 (Summary Order of
Dismissal) (4th Cir. Oct. 9, 2019), rehearing and
rehearing en banc denied (4th Cir. Nov. 5, 2019).
% ECF No. 8453, In re Ethicon, Inc., No. 2:12-md02327 (Allocation Order) (S.D. W. Va. July 25,
2019).
****
% ***RELATED*** ECF No. 21, In re Ethicon, Inc. —
Kline & Specter, P.C. v. Common Benefit Fee & Cost
Comm., No. 19-1224(L) (Order), 2019 WL 4120999
(4th Cir. June 14, 2019).
% ***RELATED*** ECF No. 16, In re C. R. Bard, Inc.
— Anderson Law Offices, et al. v. Common Benefit
Fee & Cost Comm., No. 19-1849(L) (Summary Order
of Dismissal) (4th Cir. Sept. 23, 2019).
JURISDICTION
The United States Court of Appeals for the Fourth
Circuit entered its Judgment Order on October 9, 2019,
dismissing the appeal docketed by Petitioner Mazie,
Slater, Katz & Freeman, LLC. The Fourth Circuit
thereafter entered an Order on November 5, 2019,
denying Petitioner’s petition for panel rehearing and
rehearing en banc. Petitioner thereafter filed the

2
instant Petition for a writ of certiorari on February 3,
2020. Jurisdiction in this Court is asserted pursuant
to 28 U.S.C. §1254(1).
FEDERAL AUTHORITIES INVOLVED
Respondent Common Benefit Fee and Cost
Committee (“FCC”), as explained in detail infra,
disagrees with Petitioner’s wholly unsupported
assertions that the judgment of affirmance entered by
the Fourth Circuit below evidences any conflict
whatsoever with any other federal court of appeals. To
the contrary, this matter presents no substantial
question arising under the Constitution or laws of the
United States.
STATEMENT OF THE CASE
Introduction
No different from its failed companion No. 19-791,
the instant Petition stems from an attempted appeal,
dismissed by the Fourth Circuit, from the district
court’s order allocating to Petitioner common benefit
attorney fees and expenses in an amount less than
Petitioner believed it deserved. This Court properly
denied the petition in No. 19-791, and the same result
is warranted here.
As in No. 19-791, the Fourth Circuit dismissed
Petitioner’s appeal on the basis of an appeal waiver set
forth in an agreed order first entered by the district
court in 2012. The same waiver applies here, and
Respondent objects to this Petition on the ground that
Petitioner forfeited its right to have any court —
including this Court — consider its appeal.

3
Petitioner presents a snippet of background
regarding “the MDL System” in general, and that of the
pelvic mesh MDL in particular, see Petition at 3-7,
basing much of its argument that the standard for
certiorari review is met by virtue of the prevalence of
MDLs in the federal judicial system. Petitioner also
purports to speak to the relative contributions of MDL
law firms who were awarded more in fees than
Petitioner believes they should have been. Petitioner’s
focus is curious in light of its admission that “Mazie
Slater was not in the MDL.” Id. at 9 (emphasis
added); see also App. at 51a-52a (recognition that “a
great deal” of Petitioner’s work “done in individual
cases filed in the state courts of New Jersey”); ECF No.
11, Mazie, Slater, Katz & Freeman, LLC v. Common
Benefit Fee and Cost Comm., No. 19-1943(L)
(Appellant’s Brief in Opposition to Motion to Dismiss
Appeal) (4th Cir. Sept. 23, 2019) [hereinafter “CA4
Resp.”], at 58 (Petitioner explaining its choice to
remain in state court to exclusion of MDL). Petitioner
chose not to participate in the MDL, filed no cases in
the MDL, and was not part of the MDL plaintiffs’
leadership, yet it ultimately chose to seek
compensation from the MDL common benefit fund and
to be concomitantly bound by the MDL court’s common
benefit orders. One of those orders contains the waiver
that foreclosed its attempted appeal.1
1

The agreed Management Order was submitted to the district court
and entered in each of the seven individual MDLs. See ECF No. 303,
American Medical Systems MDL 2325 (Oct. 4, 2012); ECF No. 365,
Bard MDL 2187 (Oct. 4, 2012); ECF No. 212, Boston Scientific MDL
2326 (Oct. 4, 2012); ECF No. 282, Ethicon MDL 2327 (Oct. 4, 2012);
ECF No. 15, Coloplast MDL 2387 (Oct. 4, 2012); ECF No. 43, Cook MDL
2440 (Oct. 28, 2013); ECF No. 78, Neomedic MDL 2511 (Dec. 22, 2015).

4
The district court accurately found — and the
Fourth Circuit affirmed — that Petitioner knowingly
and voluntarily waived its right to appeal the district
courts’ award of common benefit attorney fees. For no
other reason than it is dissatisfied with its award,
Petitioner asks the Court to grant certiorari to allow it
to pursue an appeal notwithstanding the waiver and
despite the distribution to date of over $460 million to
it and more than ninety other law firms. Confronted
with the same operative facts and circumstances
presented by another dissatisfied law firm in No. 19791, the Court denied certiorari. There is simply no
reason why the same result should not obtain here.
Factual and Procedural Background
On January 30, 2019, the district court, having
presided for nearly nine years over one of the largest
cases in this nation’s history — seven related
multidistrict litigation (“MDL”) proceedings involving
allegedly defective pelvic mesh products consisting of
over 104,000 individual claimants — entered an order
approving a unitary MDL common benefit fund for
attorney fee and expense awards, funded by a fivepercent “holdback” of each individual plaintiff’s
settlement or judgment. See Petition at 7; App. at 6a,
26a. On July 25, 2019, the district court entered its
Allocation Order dividing the fund proceeds among the
ninety-two law firms that provided services and
incurred expenses for the common benefit of the MDL
plaintiffs. See App. at 6a-13a. Although Petitioner
worked almost exclusively in the significantly smaller

5
New Jersey state court litigation2 and largely with
respect to a single product — and not in the MDL,
which included multiple defendants and dozens of
products — it has received an allocation of more than
$7.2 million in fees and over $1.8 million in expenses
from the MDL common benefit fund. Going forward,
Petitioner will continue to receive additional common
benefit payments.
Of the ninety-two MDL common benefit applicant
firms, only four asserted any objection to the district
court’s orders respecting the award or allocation of fees.
The Fourth Circuit dismissed the appeals of each of the
four objecting firms as barred by an appeal waiver
contained within an agreed order entered by the
district court at the outset of the MDL. See In re
Ethicon, Inc. (Kline & Specter, P.C. v. Common Benefit
Fee & Cost Comm.), No. 19-1224(L), 2019 WL 4120999
(4th Cir. June 14, 2019) (dismissing Kline & Specter
appeal of Common Benefit Award); In re C.R. Bard.
Inc. (Anderson Law Offices, et al. v. Common Benefit
Fee and Cost Comm.), Nos. 19-1849(L) & 19-1892 (4th
Cir. Sept. 23, 2019) (dismissing consolidated appeals of
Allocation Order by Anderson Law Offices and
Bernstein Liebhard LLP); In re C.R. Bard, Inc. (Mazie,
Slater, Katz & Freeman, LLC v. Common Benefit Fee
and Cost Comm.), No. 19-1943 (4th Cir. Nov. 5, 2019)
2

The New Jersey consolidated pelvic mesh litigation involved two
manufacturers and included fewer than 7,000 cases.
By
comparison, there were seven pelvic mesh MDLs coordinated
before the district court that involved more than seven
manufacturers, multiple related defendants, and many dozens of
pelvic mesh devices, ultimately encompassing more than 104,000
cases. See App. at 67a.

6
(dismissing Petitioner’s appeal of Allocation Order).
That agreed order established the comprehensive
procedural mechanism whereby applications for
common benefit reimbursement might eventually be
considered.
Where further review was sought from the Fourth
Circuit, the Court denied petitions for rehearing and
rehearing en banc of each of its dismissal orders.
Among the first three putative appellants, only
Anderson Law Offices sought the Court’s review by
virtue of a petition for certiorari, No. 19-791, materially
indistinguishable from the one at bar. The Court
denied that petition less than a month ago, on
February 24, 2020, and this petition should be
consigned to the same fate.
ARGUMENT
The Court will grant a petition for a writ of
certiorari “only for compelling reasons.” SUP. CT. R. 10.
The reasons deemed compelling enough for Court
review typically arise from an irreconcilable conflict
among the federal courts of appeals — or between one
of those courts and a state court of last resort — on an
“important federal question.” Id. 10(a); see id. 10(b)
(providing similarly for review of conflicting state-court
decisions). Review may also be compelling when an
important federal law question decided by a lower
tribunal is unsettled or is in conflict with established
Court precedent. See id. 10(c).
The keystones are “conflict” and an “important
question of federal law,” neither of which are present in
this case. Indeed, the gravamen of Petitioner’s

7
complaint is that the court-appointed External Review
Specialist (“ERS”) found on the facts before it that the
various Participating Counsel were entitled to a
particular allocation of the available common benefit
funds; that the ERS’s findings in that regard were
erroneous; that the district court sanctioned those
erroneous findings; and that the court of appeals
erroneously found those findings unappealable. This
Court’s rules, however, expressly provide that “[a]
petition for certiorari is rarely granted with the
asserted error consists of erroneous factual findings or
the misapplication of a properly stated rule of law.”
SUP. CT. R. 10(c).
1. No circuit split exists regarding the
enforceability of the appellate waiver
underlying the dismissal of Petitioner’s
appeal.
Despite Petitioner’s creative attempt to urge a split
of legal authority where none exists, its appeal was
dismissed because of its knowing and voluntary waiver.
There is no split of authority regarding the appellate
waiver that served as the ground for the Fourth
Circuit’s dismissal of Petitioner’s appeal. Appeal
waivers such as that agreed upon by Petitioner and
every other common benefit fee applicant firm are a
“common practice” enforced by “the great weight of
authority,” and are encouraged by courts in furtherance
of the public policy of resolving disputes through
negotiation and avoidance of protracted litigation.
Goodsell v. Shea, 651 F.2d 765, 767 (C. C. Pat. App.
1981); see Hill v. Schilling, 495 Fed. App’x 480, 487
(5th Cir. 2012); Slattery v. Ancient Order of Hibernians

8
in Am., Inc., No. 97-7173, 1998 WL 135601, at *1 (D.C.
Cir. 1998); In re Lybarger, 793 F.2d 136, 137 (6th
Cir.1986); Brown v. Gillette Co., 723 F.2d 192, 192-93
(1st Cir. 1983); see also MACTEC, Inc. v. Gorelick, 427
F.3d 821, 830 (10th Cir. 2005) (“[C]ourts routinely
enforce agreements that waive the right to appellate
review over district court decisions.”)
Petitioner argued unsuccessfully below — and
continues to urge — that among the more than ninety
law firms that applied for MDL common benefit fees, it
alone is not bound by the appeal waiver that served as
the basis for dismissal of Petitioner’s and the other
three objectors’ appeals. Petitioner contends that it
had what it refers to as a separate “agreement” that
did not contain an appeal waiver. See Petition at 9-11,
32-34.
Petitioner’s argument cannot withstand
scrutiny.
Although it chose not to participate in the MDL,
Petitioner knowingly and voluntarily chose to be
bound by the MDL orders in exchange for the
opportunity to submit time and expenses for potential
compensation from the common benefit fund. On
August 28, 2012, Petitioner entered an agreement with
certain MDL counsel recognizing that the district court
may subsequently enter an order “which will govern
the receipt of funds necessary to fund the discovery
work of the combined federal MDLs and which will
further provide for the procedure for submission for
common fund time and for reimbursement of common
fund expenses.” ECF No. 13, Mazie, Slater, Katz &
Freeman, LLC v. Common Benefit Fee and Cost Comm.,
No. 19-1943(L) (Appellee’s Reply in Support of Motion

9
to Dismiss Consolidated Appeals) (4th Cir. Sept. 27,
2019) [hereinafter “CA4 Reply”], at 17; see also CA4
Resp. at 78-79. The agreement further stated that
“[s]uch order will control the form of all common
benefit submissions.” CA4 Reply at 17. The agreement
provided that “New Jersey counsel” would not be
subject to the MDL court’s common benefit orders or
required to submit time and expenses for MDL common
benefit compensation “unless and until such NJ
counsel chooses to make an application for
common benefit fees and expenses pursuant to such
Order.” Id. (emphasis added).
On October 4, 2012, MDL Plaintiffs’ leadership
submitted to the district court an “Agreed Order
Regarding Management of Timekeeping, Cost
Reimbursement and Related Common Benefit Issues”
(the “Management Order”), which set forth procedures
and guidelines for law firms’ submissions of
applications for potential reimbursement for common
benefit fees and expenses.
The Management Order provides, in pertinent part:
“Participating counsel” are counsel who
subsequently desire to be considered for common
benefit compensation and as a condition
thereof agree to the terms and conditions
herein and acknowledge that the court will
have final, non-appealable authority
regarding the award of fees, the allocation of
those fees and awards for cost reimbursements
in this matter. Participating counsel have
(or will have) agreed to and therefore will
be bound by the court’s determination on

10
common benefit attorney fee awards,
attorney fee allocations, and expense
awards, and the Participating Counsel
knowingly and expressly waive any right to
appeal those decisions or the ability to
assert the lack of enforceability of this
Agreed Order or to otherwise challenge its
adequacy.
(emphasis added). The Management Order was
expressly incorporated by reference in each of the three
subsequent common benefit orders entered by the
district court.3 Neither Petitioner nor any other law
firm or plaintiff asserted any timely objection to the
Management Order, to any of its terms and provisions
(including the appeal waiver), or to any of the multiple
subsequent common benefit orders in which the
Management Order was incorporated
On March 22, 2016, the Hon. Brian Martinotti, who
then presided over the New Jersey state court pelvic
mesh litigation in which Petitioner participated,
entered an order drafted and submitted by Petitioner,
establishing a separate common benefit process for
New Jersey state court cases not subject to the MDL
common benefit orders (the “NJ common benefit
order”). See CA4 Reply at 21 (Mar. 14, 2016 letter from
3

See ECF No. 747, Ethicon MDL 2327 (“Agreed Order Establishing
MDL Fund to Compensate and Reimburse Attorneys for Services
Performed and Expenses Incurred for MDL Administration and
Common Benefit”), at 1; ECF No. 1845, id. (“Order Establishing
Criteria for Applications to MDL Fund . . . and Appointment of
Common Benefit Fee and Cost Committee”), at 2; ECF No. 4044,
id. (“Fee Committee Protocol”), at 1. The same orders were
entered in each of the MDLs.

11
Petitioner to J. Martinotti attaching proposed order);
id. at 33 (order as signed and entered); see also CA4
Resp. at 79. The NJ common benefit order drafted and
submitted by Petitioner provides in pertinent part:
The Court recognizes that there is an Agreement
in place between the New Jersey litigation and
the MDL, whereby law firms with no cases in
the MDL are permitted to subject their
New Jersey cases to the MDL common
benefit orders, in order to seek
reimbursement/ payment for common benefit
work and expenses. Any such law firm that
elects to subject itself to the MDL common
benefit orders or is otherwise subject to the
MDL common benefit orders pursuant to their
terms shall not be subject to assessment of its
cases in New Jersey pursuant to this Order, for
the reasons set forth herein.
CA4 Reply at 27 (emphasis added).
On the same day its NJ common benefit order was
entered, Petitioner chose to submit time and expenses
to the MDL court for consideration of common benefit
compensation, and the firm has continued to submit its
time and expenses in the MDL since then. By electing
to seek compensation from the MDL common benefit
fund, Petitioner made the choice to proceed as
“Participating Counsel” under the Management Order.
Under the district court’s Management Order, all
“Participating Counsel” were deemed to agree to the
appeal waiver as a condition for MDL common benefit
consideration. No differently from every other firm

12
that sought MDL common benefit consideration,
Petitioner is bound by the appeal waiver that led to
dismissal of its appeal below.
To attempt to avoid the waiver, Petitioner cites to a
February 2016 email and letter from the Chairman of
the FCC, which it characterizes as a discrete
“agreement” omitting an appeal waiver. See Petition at
9-11, 33. Petitioner’s contentions defy logic: the appeal
waiver is set forth in the district court’s October 4,
2012 Management Order. Nothing in the cited
correspondence with the FCC Chairman could be
construed to allow Petitioner to avoid compliance with
the Management Order entered years prior. Much to
the contrary, the March 2016 NJ common benefit order
reiterates Petitioner’s August 2012 agreement that if it
were to “choose” to seek common benefit compensation
in the MDL, Petitioner would “subject itself” to the
MDL common benefit orders. Petitioner plainly made
that choice and, in exchange, received an allocation of
nearly $9 million from the MDL fund to date,
notwithstanding that it declined for years to
participate in the MDL.
Petitioner’s argument that it was not bound by the
MDL’s common benefit orders even though it sought
compensation from the MDL common benefit fund is
also contrary to its May 23, 2018 MDL Fee Affidavit,
where a firm partner swore under penalty of perjury:
I have complied with [the MDL common benefit
orders] in all material aspects and the law firm
identified herein has submitted true and correct

13
time and expense submissions pursuant to the
Court’s Pretrial Orders.
CA4 Reply at 45.4
Petitioner professes opposition to the very concept
of an appeal waiver in the common benefit context, and
it asserts that “the use of a forced appellate waiver in
the common benefit arena is . . . illustrative of a
disturbing trend.” Petition at 34. It is instructive to
consider, then, that the common benefit order that
Petitioner itself drafted, which was entered in the New
Jersey state court, contains operative language
materially indistinguishable from the language of the
MDL Management Order that it decries here.
Specifically, the NJ common benefit order drafted by
Petitioner provides that “Participating Counsel” are
counsel who, as a condition of being considered for
common benefit compensation, agree by virtue of the
submission of time and expenses that the state court
will have “final authority” regarding any award or
allocation of fees, and that they “will be bound by” the
state court’s determination on such matters. CA4
Reply at 35. Moreover, in the federal In re Benicar
(Olmesartan) Products Liability Litigation MDL
pending in the District of New Jersey, where Petitioner
serves as co-lead counsel for the plaintiffs and as a
member of the MDL common benefit committee, the
court entered a case management order proposed by
plaintiffs’ leadership that contains precisely the same
4

The MDL Pretrial Orders referenced in Petitioner’s Fee Affidavit
include the Management Order containing the appeal waiver.
Each of the other cited Pretrial Orders incorporate the
Management Order by reference.

14
appeal waiver language at issue here. See id. at 72; see
also id. at 82 (Petitioner’s February 5, 2019 letter to
district court requesting appointment of Benicar
Common Benefit Committee pursuant to case
management and other orders). In light of its own
conduct in this and other litigations, Petitioner’s
denunciation of the instant appeal waiver is especially
disingenuous.
2. Petitioner’s misguided “circuit split”
argument is unsupported by the case law to
which it cites.
Because the factual and legal bases supporting the
Fourth Circuit’s ruling cannot meet the traditional
standard for certiorari review in this Court, Petitioner
alleges that the Fourth Circuit’s dismissal of its appeal
somehow created a circuit split regarding the requisite
procedure for allocating common benefit attorney fees
in an MDL. As set forth above, Petitioner’s appeal was
dismissed because of an appeal waiver to which
Petitioner knowingly and voluntarily agreed in
exchange for the opportunity to seek compensation
from the MDL fund. The appeal waiver that foreclosed
Petitioner’s appeal before the court of appeals likewise
dooms this Petition. Moreover, the “circuit split”
alleged by Petitioner simply does not exist, in law or in
fact.
Petitioner’s contention that the district court’s
process was unfair or lacked transparency is
unfounded. The months-long, comprehensive review
process undertaken by the FCC in relation to the
common benefit time and expense submissions of every
applicant firm has been explained to all applicants in

15
laborious detail. See, e.g., App. at 9a-10a (district court
outlining the FCC’s “exhaustive” review process); id. at
34a-35a; 85a-99a. In addition to receiving extensive
information about how all applications would be
evaluated, time and expenses that may be questioned
or disallowed, and every applicant firm’s recognized
hours together with the allocation for each, Petitioner
and all other applicant firms had multiple
opportunities to object and be heard, and to provide
feedback to and receive feedback from the FCC and
ERS. See ECF No. 7640-2, In re Ethicon, Inc., No. 2:12md-02327, (S.D. W. Va. Mar. 12, 2019) at ¶¶ 103-228;
App. at 28a-32a; 35a-42a; 113a-114a.
In addition to its time and expense records,
Petitioner’s submissions to the FCC, the ERS, and to
the district court in the common benefit process
included the firm’s biography, affidavits regarding the
firm’s common benefit contributions, and multiple
motions, briefs, and responses together totaling
hundreds of pages. See App. at 21a-22a, & n.3.
Petitioner communicated directly with members of the
FCC about the review and allocation process, the New
Jersey state court litigation, and the contributions of it
and other firms to that litigation. Petitioner appeared
personally before the FCC and had the opportunity to
address any issues it deemed appropriate, and to
answer questions from the FCC regarding the
contribution of other firms to the New Jersey litigation.
See ECF No. 7816, In re Ethicon, Inc., No. 2:12-md02327, (S.D. W. Va. Apr. 8, 2019) at 23-24, 54-72; App.
at 149a-150a. Petitioner also met personally with the
ERS as well as with members of the FCC. See App. at
36a-37a.

16
Moreover, Petitioner had the opportunity to object
to the district court. In its Allocation Order, the
district court observed:
[T]he composition of the FCC significantly
contributed to a process that was structurally
designed for transparency and equitable
distribution of common benefit fund monies. …
The procedural guidance to claimants assured
fairness by offering multiple opportunities for
each claimant to refine their claims, to object to
preliminary conclusions, to advocate for changes,
and to object to the penultimate
recommendation of the FCC. Finally, each firm
was entitled to pursue their objections by
requesting a further evaluation from the
External Review Specialist, Judge Stack,
appointed by me. Each firm was then afforded
the opportunity to object to the External Review
Specialist’s final recommendation by appealing
to me.
App. at 8a-9a. The district court further noted that the
FCC followed the court’s orders and guidance, and that
the same process and criteria were applied to every
applicant firm. See id. at 9a-10a. Any contention that
the district court’s common benefit allocation process
was anything other than open, fair and transparent is
manifestly without merit.
Petitioner urges that a “circuit split” exists because
it alleges other circuit courts would have required
discovery of other applicant firms’ time records and an
“evidentiary hearing” that the district court did not

17
allow below. (Pet. at i., 3, 14, 16, 18, 27). Petitioner is
wrong. The very cases upon which Petitioner purports
to rely here expressly rejected arguments that
discovery of other applicant firms’ billing records and
an evidentiary hearing are required in the common
benefit allocation process.
Petitioner’s contention that discovery of other firms’
billing records is somehow required in the common
benefit attorney fee allocation process is contrary to the
authority it cites. In In re Diet Drugs, 582 F.3d 524,
538 (3d Cir. 2009), one of the three primary cases on
which Petitioner relies, the court of appeals observed
that although the district court had allowed “limited
discovery” below, “it need not have granted discovery at
all.” In so noting, the panel adverted to its prior
authority “recognizing that ‘discovery in connection
with fee motions should rarely be permitted,’ and that
‘whether to grant discovery is committed to the sound
discretion of the [district] court.’” Id. (quoting In re
Prudential Ins. Co. Am. Sales Practice Litig. Agent
Actions, 148 F.3d 283 at 338, 342 (3d Cir.1998)).
Likewise, in In re Genetically Modified Rice Litig., 764
F.3d 864, 872 (8th Cir. 2014), the court of appeals
affirmed an MDL court’s denial of a fee applicant firm’s
request for other firms’ billing records, stating that
“[a]lthough the court did not appoint an external
auditor or permit discovery, cf. In re Diet Drugs, 582
F.3d at 533-34, discovery in connection with fee
motions is rarely permitted, In re Prudential Ins. Co.
Am. Sales Practice Litig., 148 F.3d 283, 338 (3d Cir.
1998), and a ‘request for attorney’s fees should not
result in a second major litigation.’ Hensley v.

18
Eckerhart, 461 U.S. 424, 437, 103 S. Ct. 1933, 76 L. Ed.
2d 40 (1983).”
Similarly, Petitioner’s contention that the MDL
court should have conducted an evidentiary hearing
was rejected in In re Thirteen Appeals Arising out of the
San Juan Dupont Plaza Hotel Fire Litig., 56 F.3d 295,
301-302 (1st Cir. 1995), the second of the three cases on
which its argument is grounded. In Thirteen Appeals,
the First Circuit recognized that “[w]e need not tarry
over the supposed error in refusing to hold an
evidentiary hearing. A district court is not obliged to
convene an evidentiary hearing as a means of resolving
every attorneys’ fee dispute.” Id. at 301-302. “The
controlling legal principle, then, is that parties to a fee
dispute do not have the right to an evidentiary hearing
on demand. When the written record affords an
adequate basis for a reasoned determination of the fee
dispute, the court in its discretion may forgo an
evidentiary hearing.” Id. at 303. Unsurprisingly then,
in the third of the three cases cited by Petitioner, In re
High Sulfur Content Gasoline Prods. Liab. Litig., 384
Fed. App’x 299 (5th Cir. 2010), the court of appeal
rejected the argument that the MDL court erred by
failing to hold a hearing before allocating common
benefit attorney fees. The court in High Sulfur
expressly observed that “[a] district court is not
required to hold a hearing on a motion for attorneys’
fees in a class action.” Id. at 301.
Because Petitioner’s appeal was foreclosed by the
appeal waiver to which it willingly agreed in exchange
for the opportunity to seek compensation from the
MDL fund, any argument regarding what types of

19
attorney fee allocation procedures may allegedly have
been endorsed by other circuits in other cases is
misplaced. However, even if Petitioner’s appeal were
not foreclosed by its waiver, its allegation of a “circuit
split” is demonstrably unsupported by — and, indeed,
contrary to — the very authority upon which it
premises its argument. This petition should be denied.
CONCLUSION
For all the foregoing reasons, Respondent urges the
Court to deny the petition for a writ of certiorari.
Respectfully submitted,
BENJAMIN L. BAILEY
Counsel of Record
RAYMOND S. FRANKS II
BAILEY GLASSER LLP
209 Capitol Street
Charleston, WV 25301
(304) 345-6555
bbailey@baileyglasser.com
rfranks@baileyglasser.com
Counsel for Respondent Common
Benefit Fee and Cost Committee

